                                NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




        OFFICE OF
   INSPECTORGENERAL                             i




              --
MEMORANDUM                                      April 13, 1999

To:



Via:
';'Om

Re:

Backmound:
            :--ens
                 File #I98080024




                 U~loseout
                                   pecla
                                        I   Advisor/Investigative Attorney

                                               nt-~n-Charge,

                                                    -.-
                                                                             Section




                                                                     ement to   DO
                                                                   enses (totaling $724.00) for a
                                                                      conference and his home
                                                                   An audit was scheduled for


Investigation:

                              ia telephone on April 8, 1999. He stated that he believed that he had
reimburs                          expenses when he received his reimbursement check from AMS.
                                                     explained to us that-ndorsed            the
                                              it was credited to the administrative account. She
                                                to make an adjusting entry to transfer these h d s to
                                                   provided information, including a deposit slip for
$724.00 and account detail for the administrative account, that support this explanation and
stated that the adjusting entry to transfer the funds back to the IVSF grant account will be
completed.

As part of a previously planned audit -0    reviewed other conference related travel
charged t a r d s and identified no additional duplicate reimbursements.

Findings:

The apparent duplicate payment was a result o-ilure              to credit the reimbursement from
AMS to the correct account.    The $724.00  has been  returned to the NSF account. The audit of
r e v e a l e d no other indications of fraudulent activity. No further investigation is warranted
at this time. This case is closed
